U.S. Department of                                   The Inspector General          Office of Inspector General
Transportation                                                                      Washington, DC 20590
Office of the Secretary
of Transportation



June 3, 2009

The Honorable Patty Murray                             The Honorable John W. Olver
Chairman                                               Chairman
Subcommittee on Transportation,                        Subcommittee on Transportation,
Housing and Urban Development, and                     Housing and Urban Development, and
Related Agencies                                       Related Agencies
Committee on Appropriations                            Committee on Appropriations
United States Senate                                   United States House of Representatives
Washington, DC 20510                                   Washington, DC 20515

The Honorable Christopher “Kit” Bond                   The Honorable Tom Latham
Ranking Member                                         Ranking Member
Subcommittee on Transportation,                        Subcommittee on Transportation,
Housing and Urban Development, and                     Housing and Urban Development, and
Related Agencies                                       Related Agencies
Committee on Appropriations                            Committee on Appropriations
United States Senate                                   United States House of Representatives
Washington, DC 20510                                   Washington, DC 20515

Dear Chairmen Murray and Olver and Ranking Members Bond and Latham:

This report presents our quarterly assessment of Amtrak’s year-to-date (through
March 2009) and forecasted end-of-year fiscal year (FY) 2009 financial
performance. As we reported in February 2009, Amtrak is not implementing any
new operational reform initiatives in FY 2009. 1 The report also includes an
update on Amtrak’s use of American Recovery and Reinvestment Act (ARRA)
funds.

Summary

While Amtrak’s year-to-date operating loss continues to be less than originally
budgeted, the margin has narrowed from 24.1 percent less than budget at the end
1
    Our February 2009 and prior quarterly reports on Amtrak’s financial performance and savings from
    operational reforms are available at www.oig.dot.gov.


CC-2009-063
                                                                                                                       2

of the first quarter of FY 2009 to 6.9 percent less at the end of the second quarter.
Further, Amtrak’s financial performance is expected to continue to erode during
the remainder of the year primarily due to the continued economic recession.
Amtrak now expects an end-of-year operating loss that is $25.8 million more than
was originally budgeted (see figure 1 below). 2 Amtrak has not yet identified the
measures it will take to close this funding gap. However, it plans to shift some

            Figure 1. Amtrak Actual vs. Budget FY 2009 Operating Loss
                               (Dollars in Millions)
              (28)
        0             (42)
                              (82)
               (31)
    (100)             (62)
                                      (161)
                             (108)
                                                 (203)
    (200)                            (178)               (260)
                                                (240)            (303)
    (300)                                                                  (347)
                                                         (279)                     (365)
                                                                 (317)                        (390)
                                                                           (348)                       (423)
    (400)
                                                                                   (383)                       (475)
                                                                                              (425)
    (500)                                                                                             (462)
                                                                                                               (501)

    (600)
              Oct     Nov    Dec      Jan       Feb      Mar     Apr       May     Jun        Jul     Aug      Sep

                                             Budget               Actual                   Forecast

Source: Amtrak

previously incurred costs from general operating to capital costs. This will
increase its end-of-year cash balance to $182.2 million, well above the levels we
previously reported were required. 3 Amtrak could use this additional cash to
cover the operating loss shortfall if it is unable to identify and implement
sufficient cost savings to close the funding gap.

Despite these efforts to address its near-term financial condition, Amtrak could do
more by providing a transparent and detailed analysis of the financial risks and
external factors 4 impacting the company’s revenues and expenses. Doing so
would improve the policymakers’ understanding not only of the magnitude of the
financial risks facing Amtrak, but also its decisions in response to these risks.

2
    Operating loss is reported on an earnings before interest, taxes, depreciation, and other post-employment
    benefits (EBITDO) basis, unless otherwise noted. EBITDO operating loss is a measure of Amtrak’s
    ability to operate within its available resources and serves as a reasonable proxy for Amtrak’s Federal
    operating support requirements.
3
    We report on the cash balance because it reflects Amtrak’s ability to pay its bills at any point in time.
    Cash balance and operating loss are two key indicators of Amtrak’s financial performance.
4
    Examples include economic growth and fuel prices.


CC-2009-063
                                                                                                     3

While Amtrak has enhanced its internal reporting of financial and operating
measures, 5 it will be important to integrate this reporting with the measures
required under the Passenger Rail Investment and Improvement Act of 2008
(PRIIA) 6 to better link Amtrak’s actions, external risks, and bottom line.

Further, Amtrak’s January 2009 Strategic Profile provides the basic framework to
develop into a full strategic plan, but lacks sufficient detail as to how Amtrak’s
external reporting requirements, day-to-day business management, and multi-year
financial planning will advance its strategic vision. Finally, while Amtrak has
moved quickly to identify projects and award its ARRA funds, its current
reporting lacks the specific project-level detail needed to assess fully how this
spending is consistent with its previously stated priorities. Amtrak is developing
more detailed information to address this issue.

Amtrak’s Year-to-Date Financial Performance Has Declined

Amtrak’s operating loss in the second quarter increased relative to the budgeted
loss, because of lower than budgeted revenues that were only partially offset by
lower than budgeted expenses. The economic recession, high unemployment, and
lower gasoline prices have continued to drive down Amtrak’s ridership and
revenues, particularly in the northeast. Lower fuel prices and health plan costs
have not been enough to fully offset these lower revenues. The impact of these
factors on Amtrak’s year-to-date financial performance are disclosed below.

                       Table 1. Amtrak’s Financial Performance
                            (Through 2nd Quarter FY 2009)
                                                    Year-To-Date                Variance
                                                   ($ in thousands)            Favorable/
                                                 Actual          Budget        Unfavorable
          Total Operating Revenues           $1,156,461 $1,214,758              ($58,297)
          Total Operating Expenses           $1,416,336 $1,494,027              ($77,691)
          Operating Profit/(Loss)             ($259,875) ($279,269)              $19,394
            Source: Amtrak

Operating Loss Increased. Amtrak’s operating loss through March 2009 was
$259.9 million, $19.4 million or 6.9 percent less than Amtrak originally budgeted
(see table 1 above). This is a slight reversal of the trend from the first quarter of
2009. That is, revenues still are lower than budget, but this reduction is no longer

5
    For example, Amtrak has established monthly “Dashboard” reports with key performance indicators for
    its Board of Directors.
6
    Section 207 of PRIIA requires quarterly reporting on Amtrak financial and operating metrics.


CC-2009-063
                                                                                 4

being offset entirely by lower than budgeted expenses. Amtrak’s relatively poorer
financial performance through the second quarter compared to the first quarter is
attributable primarily to lower passenger-related revenue. The difference between
Amtrak’s actual and budgeted passenger revenue in the second quarter of $90.3
million under budget is more than doubled the difference in the first quarter of
$39.1 million under budget. In contrast, expenses increased from $51.0 million
below budget to $77.7 million below budget expenses from the first to the second
quarters.

Operating Revenue Declined. Total operating revenue through March 2009 was
$1.2 billion, which was $58.3 million below the amount budgeted (see table 1 on
page 3). Amtrak attributed this decline to reduced ridership caused by the
economic recession, high unemployment, and low gas prices. Amtrak's total
ridership through March 2009 was 13.1 million trips, down 7.3 percent from
budget and 3.4 percent from the same period in FY 2008. This lowered passenger-
related revenue by $90.3 million or 9.1 percent below budget. Partially offsetting
the lower passenger-related revenue were Amtrak's commuter and other operating
revenues, which were $32.1 million or 14.2 percent above budget primarily due to
a settlement regarding outstanding fees from New Jersey Transit and higher
ancillary revenues.

Driving this decline in total revenues is the low Acela ticket revenues, which were
$40.9 million or 16.2 percent below budget, and lower Northeast Corridor (NEC)
Regional train ticket revenues, which were $29.6 million or 12.0 percent below
budget (see table 2 on page 5). In addition to the impact of the economic
recession and high unemployment on the northeast business travel market,
ridership on Acela, NEC Regional, the Empire, and the Keystone trains has
been adversely affected by slower schedules due to concrete tie replacement
work. This work will continue to affect schedules along the NEC for the next few
months, and according to Amtrak, may seriously harm Acela's main travel market
(south of New York) and drive ridership and ticket revenues down further.

In contrast, Amtrak's long distance trains were the only service to increase
ridership and revenues with a 0.7 percent increase in ridership and a 0.4 percent
increase in ticket revenues through March 2009. This increase was due in part to a
striking improvement in the on-time performance (OTP) for long distance service
from 54.6 percent of long distance trains arriving on-time through March of FY
2008 up to 79.6 percent for the same period in FY 2009.




CC-2009-063
                                                                                                            5




         Table 2. Amtrak Ridership and Passenger Ticket Revenues
              Actual vs. Budget (Through 2nd Quarter FY 2009)
                             Ridership (in thousands)              Ticket Revenue (in thousands)
                           Actual      Budget        % Diff.        Actual         Budget         % Diff.
NEC:                         4,873       5,490       -11.2%        $428,349       $498,909        -14.1%
    Acela                    1,520       1,756       -13.4%        $211,287       $252,220        -16.2%
    Northeast Regional       3,349       3,726       -10.1%        $216,402       $246,020        -12.0%
State Supported
  Corridors                 6,215        6,639         -6.4%       $165,623       $180,619          -8.3%
Long Distance                1,970       1,957          0.7%       $190,477       $189,748           0.4%
Amtrak Total               13,058       14,085         -7.3%       $784,449       $869,276          -9.8%
Source: Amtrak
Note: % Diff.= percent difference between actual and budget.

Operating Expenses Declined. Total operating expenses through March 2009
were $1.4 billion, $77.7 million or 5.2 percent lower than budget (see table 1 on
page 3). These lower expenses primarily were due to lower health benefits
(Amplan), pension liability, and railroad retirement (RRTA) taxes, as well as
lower fuel costs. Offsetting these lower expenses were $5.4 million more in OTP
incentive payments to the host railroads for improved OTP and $7.2 million more
in materials costs related to additional reimbursable work, and more locomotive
and wheelset repairs than originally budgeted. In addition, Amtrak was over
budget by $17.2 million due to costs related to its replacing the third-party
guarantor on its defeased leases. 7

The lower Amplan costs, RRTA taxes, and fuel costs reflect the continuation of
trends from the first quarter of FY 2009. In FY 2008, Amtrak revised the terms of
Amplan, its health plan for employees covered by labor agreements (agreement
labor), as part of the terms of the labor settlement.           As a result of
these revisions, Amplan        posted     $11.3    million in     lower      than
budgeted expenses through March 2009, largely due to lower than forecasted
employee usage of the benefit. Regarding RRTA taxes, Amtrak overestimated by
$11.0 million the amount of these taxes it was required to pay. Additionally, it

7
    A defeased lease is a financing transaction involving, in this case, Amtrak’s sale of rolling stock to a
    private equity firm which, in turn, leases the equipment back to Amtrak. Defeased leases permit the
    capture of tax benefits that otherwise could not be used. As a result of a credit rating downgrade, Amtrak
    was required by the terms of the lease agreements to replace two of the third-party guarantors, AIG and
    Ambac. Therefore, Amtrak replaced its third-party guarantor on nine of its defeased leases with a
    stronger lender this past year and terminated three other defeased leases.



CC-2009-063
                                                                                                        6

continued to save on train fuel costs through the second quarter of FY 2009,
posting $74.2 million in savings.


Continued Declines in End-of-Year Financial Performance Projected

Economic and other factors will continue to drive down Amtrak’s expected end-
of-year revenue for FY 2009 as both the business and leisure travel markets are
expected to shrink. 8 Lower fuel and health plan costs are not expected to fully
offset the revenue reduction. As a result, Amtrak’s FY 2009 operating loss is
projected to be $500.8 million, $25.8 million more than originally forecasted (see
table 3 below).

             Table 3. Amtrak’s Forecasted End of FY 2009 Financial
                                 Performance
                                                                                    Variance
                                                FY 2009 ($ in thousands)           Favorable/
                                                  Forecast          Budget         Unfavorable
           Total Operating Revenues             $2,318,589 $2,547,014               ($228,425)
           Total Operating Expenses             $2,819,373 $3,022,014                $202,641
           Operating Profit/(Loss)               ($500,784) ($475,000)               ($25,784)
            Source: Amtrak
            Note: Table is based on Amtrak’s April 2009 forecast.

Amtrak re-estimated both its revenue and ridership forecasts in May 2009 to
reflect current economic conditions. Its current forecast for FY 2009 revenues is
$2.32 billion, $228.4 million lower than originally budgeted. This decline is due
to    decreased     ticket   revenues    (-$240.5     million),   lower estimated
corresponding food and beverage sales revenues (-$8.4 million) and state
support (-$12.7 million), offset by a forecasted increase in commuter and other
revenue (+$33.2 million). Amtrak reduced its forecasted end-of-year revenues by
$59.4 million between its December 2008 and April 2009 forecasts.

Because of a number of factors, Amtrak lowered its ridership and revenue
forecast. For example, continued low gas prices resulted in more people driving
than riding the train; reduced travel time competitiveness compared to other
modes of routes along the NEC (especially Acela and NEC Regional trains) due to
spring maintenance work and service disruptions; and continued impacts of the
economic recession. The economic impacts included national unemployment
rates, which in April had already reached the level (8.9 percent) that Amtrak

8
    Our report of Amtrak’s forecasted end-of-year performance reflects Amtrak’s latest financial data
    through April 2009.


CC-2009-063
                                                                                                           7

forecasted for the end-of-year (9.0 percent); continued drops in consumer
confidence and spending; and the shrinking of both business and leisure travel
markets.

Amtrak’s end-of-year expenses are forecasted at $2.8 billion, $202.6 million lower
than originally budgeted; and it expects to save $68.5 million in salaries, wages,
and employee benefits by the end of FY 2009. These decreases will continue to be
driven by lower agreement labor health insurance (Amplan), pension costs, and
RRTA taxes (as it has through the second quarter of FY 2009). Also, Amtrak's
total expense forecast for end-of-year FY 2009 has been adjusted to reflect a
significantly lower average price per gallon for diesel, resulting in a forecast for
fuel, power, and utilities expenses of $185.3 million or 40.2 percent lower than
originally budgeted. Finally, Amtrak reduced its forecasted end-of-year expenses
by $34.5 million between its December 2008 and April 2009 forecasts.

Amtrak has not yet identified how it will close the projected $25.8 million budget
gap. Any such gap-closing initiatives would be in addition to the $5.3 million in
savings Amtrak already identified. These savings will be derived from the
cancelation of studies and planning initiatives, lower professional services
expenditures, reduced tree cutting for road maintenance, and postponing
leadership development and performance management projects.

Amtrak’s End-of-Year Cash Balance Will Exceed Minimum Needs

Amtrak expects to end the year with a $182.2 million cash balance, $34.8 million
above the original forecast and $121.2 million below the cash balance at the start
of FY 2009 (see figure 2 on page 8). 9 This increase above the forecast reflects an
improvement of $66.9 million compared to Amtrak’s previous cash balance
forecast, which was based on financial data through December. The increase
includes an adjustment of $24.0 million related to Amtrak’s defeased lease
transactions.

Amtrak plans to increase its cash balance by shifting $24.0 million in general
operating costs to capital costs. That is, Amtrak originally paid $61.1 million for
the costs associated with closing three defeased lease transactions from its
operating cash on hand, but now plans to charge a portion of those costs to its
capital appropriation. The $24.0 million is the difference between the $285
million Amtrak is permitted to spend under its FY 2009 appropriation on debt
service and its projected FY 2009 debt service costs of $261 million. Absent this
transaction, the $24.0 million would be available for capital projects, such as
9
    This end-of-year cash balance forecast is based on Amtrak’s financial performance through March 2009.
    At the time of this report, Amtrak had not updated its cash balance forecast to reflect either April 2009
    financial data or its revised May 2009 revenue forecast.


CC-2009-063
                                                                                                  8

reducing Amtrak’s backlog of projects intended to restore its infrastructure to a
state-of-good repair.

The reduction in Amtrak’s cash balance since the start of FY 2009 is due to two
significant one-time expenditures−$70.1 million related to the retroactive wage
payment resulting from the recent labor settlement and $96.1 million to replace its
third-party guarantors for its defeased leases.

     Figure 2. Amtrak Actual and Forecast FY 2009 Cash Balances
                                         (Dollars in Millions)
                              Actual                                     Forecast
    450                                                                        417

    400
                                       329                         336
    350
           303                                                                         322
    300
                        238
    250
                               238                           228
    200                                      197                         215
                  203
                                                                                           182
    150

    100
                                                             Potential Bankruptcy
     50                                              72         at $90 million

      0
          Sept*   Oct   Nov    Dec     Jan     Feb   Mar   Apr   May June July       Aug   Sept

                                              Available Operating Cash

          Source: Amtrak


Amtrak’s Financial Risks Require Close Monitoring and Greater
Transparency

Amtrak faces several risks regarding its ability to operate within its available
resources in the remainder of FY 2009. Information currently available indicates
that these risks appear manageable. However, a lack of detail concerning key
factors that affect Amtrak’s financial performance makes it difficult to fully assess
this financial risk.

The financial risk factors include the severity and duration of the recession, in
particular its impact on business travel; the price of gasoline, which as it rises
makes rail a more economically attractive transportation alternative; and whether
the turnover rate among Amtrak employees matches Amtrak’s hiring decisions.




CC-2009-063
                                                                                  9

These risks are mitigated by two factors: (1) Amtrak’s estimates of its operating
loss are conservative, and (2) Amtrak has taken steps to increase its cash balance.
In the first two quarters of FY 2009, Amtrak has performed better financially than
forecasted, even after its performance forecasts were updated to reflect more
recent financial and economic data. As we stated in our February 2009 report,
Amtrak has likely overestimated its end-of-year cash needs. Based on an analysis
of Amtrak’s performance over 5 years, its minimum start-of-year cash balance
requirement is closer to $115 million rather than $180 million. Both the
conservative operating loss forecast and the lower cash balance requirements
provide Amtrak a cushion to accommodate unforeseen financial circumstances.

Amtrak management has been prudent in its decision to bolster its cash balance,
but it can do more. That is, Amtrak should identify additional cost saving
measures which could be taken, if needed, on short notice beyond the $25.8
million needed to close the currently forecasted shortfall. In addition to these
steps, a more transparent and complete explanation of the impact of key
assumptions on the forecasted revenues, expenses, and cash balance, including
sensitivity analyses where appropriate, would provide policy makers with a better
understanding of the level of financial risk Amtrak is confronting, both for the
current and upcoming fiscal years.

Strategic Vision Statement Is a Good First Step, but Greater Detail and
Integration of Performance Measures Is Needed

In several previous quarterly reports, we commented on the need for Amtrak to
develop a new strategic plan to guide the company. The absence of a detailed
plan, linked to a means to measure progress towards achieving its goals, makes it
difficult to understand how Amtrak’s actions and decisions help it to achieve its
strategic direction and how the direction affects Amtrak’s bottom line.

At the end of January 2009, Amtrak’s CEO released a 5-page strategic profile for
2009 through 2013, which is being developed into a full strategic plan. Amtrak’s
strategic profile commits Amtrak to a three-part vision, which includes becoming
(1) safer, that is, reducing risk to customers and employees; (2) greener, that is,
operating in a more eco-friendly manner that conserves resources and increases
efficiency; and (3) healthier, that is, better utilizing and involving Amtrak’s
employees in implementing this new vision and contributing to Amtrak’s success.

To achieve this vision, the profile calls for Amtrak to (1) fund more infrastructure
enhancements and partner more closely with northeast states to implement
effective enhancements on the NEC, (2) develop short distance corridors through
more partnerships with goals specific to geographic needs, and (3) continue to



CC-2009-063
                                                                                                              10

implement positive train control and improve on-time performance on long
distance trains.

Amtrak plans to track its progress in implementing this vision through an
assortment of internal and external performance metrics. Internally, Amtrak has
established four efficiency and five effectiveness measures−cost per available seat
mile, cost recovery ratio, company headcount, revenue per available seat mile,
ridership, safety ratio, customer service index, host railroad performance, and on-
time performance.

Externally, Amtrak and FRA have proposed a provisional list of performance
metrics and standards as required by section 207 of the PRIIA. 10 Beginning on
July 1, 2009, Amtrak and FRA are to issue quarterly reports that include
performance data for the previous two quarters. Finally, the Amtrak Board of
Directors is required by section 204 of PRIIA to submit a 5-year financial plan to
both the Secretary of Transportation and our office. Among the requirements of
this financial plan are specific measures that demonstrate measurable
improvement year over year in the financial results of Amtrak operations. The
first such plan is due to be submitted October 1, 2009, or 60 days after
appropriations are enacted for FY 2010, whichever is later.

This internal and external focus on performance measurement and improvement
provides Amtrak with an important opportunity to link its Legislative and Grant
Requests, business plans, and multi-year financial plans and its day-to-day
management decision making through clearly defined performance targets and
goals that support Amtrak’s goal of providing efficient and effective passenger rail
mobility.

Greater Specificity and Transparency Are Needed in Amtrak’s Use of
ARRA Funds

Amtrak is working quickly to obligate its ARRA funds, but the current level of
detail in its reporting makes it difficult to assess the extent to which this spending
is consistent with Amtrak’s previously stated goals and plans.

Amtrak and the Federal Railroad Administration (FRA) moved expeditiously to
meet the 30-day deadline set in ARRA to award the $1.3 billion ARRA provided
for Amtrak capital investments. On March 19, 2009, FRA signed a grant
agreement making initial ARRA funds available to Amtrak. According to


10
     The proposed metrics fall into four categories: financial, on-time performance and train delays, other
     service quality, and service availability and connectivity.


CC-2009-063
                                                                                                              11

Amtrak, FRA has approved $972.2 million of the $1.3 billion in projects Amtrak
has submitted for funding, as of May 22.

The $1.3 billion provided by ARRA consists of $850 million for the rebuilding
and modernization of infrastructure and equipment and $450 million for security
and life safety projects. FRA is permitted to retain up to 0.5 percent, or $6.5
million, of the appropriated funds for oversight purposes. Finally, of the $850
million, no more than 60 percent can be spent on the NEC and $5 million is
provided to the Amtrak Inspector General.

ARRA requires that Amtrak give priority to projects that repair, rehabilitate, or
upgrade railroad assets or infrastructure or projects that expand passenger rail
capacity, including the rehabilitation of rolling stock, and set a goal of completing
all projects within 2 years of ARRA’s enactment. At present, Amtrak plans to
spend $164.6 million or 12.7 percent of the ARRA funds in FY 2009, $778.4
million or 60.2 percent in FY 2010, and $350.6 million or 27.1 percent in FY
2011. Additionally, Amtrak plans to spend 52 percent of the $850 million of non-
security and life safety projects on the NEC.

Amtrak proposes to allocate 91.5 percent of ARRA funds to three departments--
Engineering, Security, and Mechanical. The largest share, $846.7 million or
65.5 percent, would go to the Engineering Department (see table 4 on page 12). 11
Proposed engineering projects include $165 million for bridge work (Niantic River
Bridge replacement and other bridge upgrades), $65 million for station
restorations and upgrades, $142 million for facility upgrades, $60 million for the
implementation of Positive Train Control, and $85 million for track work (right–
of-way improvements and tie replacement). Compared to its most recent State of
Good Repair Plan, Amtrak is allocating proportionately more ARRA funds to
bridges, stations, and facilities, and less to rail ties.

The Office of Security Strategy and Special Operations would receive
$196.1 million or 15.2 percent of the ARRA funds. Virtually all of these funds
would be spent on projects addressing physical infrastructure vulnerabilities.
According to FRA, these projects are consistent with the results of separate
security analyses previously funded by the Department of Homeland Security.
The conference report accompanying ARRA clarified that the ARRA capital
security grants could be used for life safety projects.

The Mechanical Department would receive $140.8 million or 10.9 percent of the
ARRA funds. Most of these funds ($90.8 million) would be spent to return to
11
     Amtrak is re-evaluating the allocation for a small portion of ARRA funds. Additionally, it has not
     received final approval for all its proposed projects. Therefore, the overall distribution of funds by
     department and year may change.


CC-2009-063
                                                                                   12

service 21 wrecked long distance cars, 60 stored or wrecked Amfleet cars, and 15
P-40 locomotives. The remaining $50 million would be spent constructing new
maintenance facilities in Los Angeles, California, and Hialeah, Florida.

               Table 4. Amtrak ARRA Funds by Department
                         Department                         Amount       Percent
                                                        (in thousands)
          Engineering                                      $846,740       65.5%
          Office of Security Strategy and
          Special Operations                               $196,140       15.2%
          Mechanical                                       $140,800       10.9%
          Chief Financial Officer                           $55,440        4.3%
          Amtrak Technologies                               $24,070        1.9%
          Contract Administration                           $15,000        1.2%
          Marketing and Product Management                   $9,300        0.7%
          Amtrak OIG                                         $5,000        0.4%
          Procurement                                        $1,050        0.1%
          TOTAL*                                           $1,293,540    100.0%
          Source: Amtrak
          * FRA oversight funds are excluded from the total.

We attempted to evaluate whether Amtrak’s proposed ARRA projects were
consistent with the priorities Amtrak had previously set forth in its Five-Year
Capital Plan. We found that the level of detail Amtrak has made available for its
ARRA projects prevents this analysis, as ARRA project descriptions at this time
are too vague or overly broad. Going forward, greater transparency and specificity
in Amtrak’s proposed use of ARRA funds would enhance both Amtrak’s
accountability and the public’s understanding of how these investments support
Amtrak’s long-term plans and goals. Amtrak plans to provide additional
information to the Department before July on projects that have not yet been
approved by FRA.

Conclusion

Amtrak continues to face some risks with regard to its financial performance this
year, but has begun to take appropriate measures to mitigate those risks. Further
steps can be taken to improve policymakers’ understanding of the magnitude of
those risks going forward. Amtrak’s internal reliance on performance
measurement and related requirements in PRIIA provide a critical opportunity to
establish, report on, and manage towards meaningful efficiency and related
performance measures. These performance measures need to be incorporated in a
more detailed strategic plan for the corporation. Finally, Amtrak has begun to
quickly implement a plan to invest the $1.3 billion in capital funds provided by


CC-2009-063
                                                                                13

ARRA but can improve the transparency of its project reporting to enhance public
understanding of how these investments relate to and support Amtrak’s previously
stated priorities.

Under separate cover, we are transmitting copies of this letter to the Secretary of
Transportation and the Chairman of Amtrak’s Board of Directors. If you have any
questions concerning this letter, please contact me at (202) 366-1959 or
David Tornquist, Assistant Inspector General for Amtrak, High Speed Rail, and
Economic Analysis, at (202) 366-1981.
Sincerely,



Calvin L. Scovel III
Inspector General
cc:   Secretary of Transportation
      Chairman of Amtrak’s Board of Directors




CC-2009-063
